T\

syomme  CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831
Fax: (402) 342-4850

www.cocklelegalbriefs.com

No. 19-1298

ROGERS COUNTY BOARD OF TAX ROLL CORRECTIONS, a political subdivision;
CATHY PINKERTON BAKER, Rogers County Treasurer,

in her official capacity; and SCOTT MARSH,
Rogers County Assessor, in his official capacity,
Petitioners,
v.
VIDEO GAMING TECHNOLOGIES, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook

12 point for the text and 10 point for the footnotes, and this brief contains 3000 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2 Ist day of August, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v 2. Z d,
RENEE J. GOSS . ¢ deed ta ‘.
My Comm. Exp. September 8, 2023 Q
Notary Public Affiant 40056
